No.
Supreme Court, U.S. •
FILED

JUL 2 3 2021
,

IN THE
OFFICE OF THE CLERK

Supreme Court of the United States

Flomo Tealeh,
Petitioner,
v.

Ward County,
Melissa Bliss,
Sandy Richter,
Briana Jensen, and
Lenaise Clark
Respondents.

On Petition For Writ Of Certiorari To
The Eighth Circuit Of The United States Court Of Appeals
PETITION FOR WRIT OF CERTIORARI

Flomo Tealeh
1414 S. 3rd Street
Minneapolis, MN 55454
Tel. 612-601-3027
People4justicel@gmail.com
Pro Se Petitioner
/

r

RECEIVED
SEP - 7 2021
OFFICE QF THE CLERK

supreme court.

U.S.

QUESTIONS PRESENTED
1. Whether, in accordance with this Court’s directive that the standard
for the second prong of a prima facie case of discrimination under the
McDonnell Douglas v. Greens burden-shifting analysis is the plaintiff ‘s
objective qualification, or instead the standard created by the Eighth Circuit
that requires the employer’s “legitimate expectations”?
2. Whether this Court’s instruction in Crawford v. Metro. Gov't of
Nashville & Davidson Cty., 555 U.S. 271 (2009) that an employee who
communicated to his or her employer a belief that the employer has engaged
in a form of employment discrimination in violation of Title VII, virtually
always constitutes protected activity, or instead, employer’s conduct must be
illegal for employee to engage in protected activity?
3.

Whether under

incompetency,

Title

VII,

unsubstantiated

accusations of

harassment, alienating, ridiculing employee, punishing

employee without investigation, coercing an employee to use a name
preferred by an employer, and employer’s plan to intimidate an employee
who engaged in protected activity that interfered with the employee’s work
condition and work-relationship constitute hostile work-environment?
4. Whether an employer who failed to investigate discrimination
complaint violates Title VII?
5. Whether a trial court has discretion to not adjudicate claims before
it that it has jurisdiction over?

l

PARTIES TO THE PROCEEDING
Petitioner, Flomo Tealeh, Child Protection Specialist/Family Service
Specialist, Ward County, North Dakota. Tealeh was Plaintiff in the District
Court and Plaintiff-appellant in the Court of Appeals. Respondents are Ward
County, Melissa Bliss, Sandy Richter, Briana Jensen and Lenaise Clark.
Respondents were Defendants in the District Court and Defendants-appellees
in the Eighth Circuit Court of Appeals.

ii

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED

l

PARTIES TO THE PROCEEDING

u

TABLE OF AUTHORITIES

xii-xin

PETITION FOR WRIT OF CERTIORARI

xiv

ORDERS/OPINIONS

X1V-XV

JURISDICTION

XV

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED...xv
STATEMENT OF THE CASE

1

RELEVANT FACTS

2-9

ON APPEAL

9-10

1. Status Discrimination

10

I.

Direct Evidence

10-11

U.

McDonnell Douglas v. Green's Analysis... 11
a. Prima Facie... 11-13
b. Pretext

2. Retaliation.

13-19
19-23

3. Failure to Investigate Discrimination... 23-24
24-26

4. Hostile Work-environment

5. Defamation and Due process...27-28
6. Motion to Amend Complaint...28

in

TABLE OF CONTENTS
.28

7. Defendants’ Bill of Cost

REASONS FOR GRANTING THE PETITION...29
1. The Eighth Circuit compounded A Circuit Conflict And Misapplied
This Court’s Precedent On The Prima Facie Second Prong
Standard

29-31

2. The Eighth Circuit Disregarded Green and Burdine ...31-32
3. The Standard For Prima Facie Second Prong Is Exceptionally
Important

32-34

4. The Eight Circuit’s Decision Cannot Be Reconciled With This Court’s
Precedence for Justice

34-36
37

CONCLUSION

CERTIFCATE OF COMPLIANCE
CERTIFICATE OF SERVICE
APPENDIX....iv-xi
Appendix A
Judgment, Opinion, United States Court of Appeals for the Eighth Circuit,
Tealeh v Ward County, el al, No. 20-1611 and 20-2196 (March 5, 2021)
App.l-App.2

iv

TABLE OF CONTENTS
Order, United States Court of Appeals for the Eighth Circuit, Tealeh v Ward
County, el al, No. 20-1611 and 20-2196 (March 15, 2021)

App.3

Appendix B
Order, United States District Court for the District of North Dakota, Tealeh u
Ward County, el al, No. l:17-cv-105 (June 2, 2020)

ADDV

Order, United States District Court for the District of North Dakota, Tealeh v
Ward County, el al, No. l:17-cv-105 (February. 25, 2020)

ADD6

Order, United States District Court for the District-of North Dakota, Tealeh v
Ward County, el al, No. l:17-cv-105 (January. 17, 2020)

ADD4

Appendix C
Report and Recommendation, United States District Court for the District of
North Dakota, Tealeh v Ward County, el al, No. l:17-cv-105 (May 15, 2020)
ADDIII
Report and Recommendation, United States District Court for the District of
North Dakota, Tealeh v Ward County, el al, No. l:17-cv-105 (February 3,
2020)

ADDU

v

TABLE OF CONTENTS

Appendix D
Tealeh’s Complaint for Title VII, U.S. Defamation Law and Fifth Amendment
Violations, United States District Court for the District of North Dakota,
Tealeh v. Ward County, el al, No. l:17-cv-105 (May 23, 2017)

AA1-AA35

Appendix E
Tealeh’s Objection to Defendant’s Summary Judgment Motion and Exhibits.
(Exh). Exh. 1, Job offer letter addressed to “Chris” instead of “Flomo”
Exh. 2, Tealeh’s Certification of Name Change in 2013 shown to defendants.
Exh. 3, Tealeh’s Driver License and Social Security Card.
Exh. 4, Tealeh’s FBI Background report and
Exh. 5, Tealeh’s Resume he submitted to the County.
Exh. 6, The County preferred Name Business Card it issued to Tealeh.
Exh. 7, Child Welfare Practitioner Certificate issued to Tealeh.
Exh. 8, Congratulation Letter from the Child Welfare Training Director to
Tealeh.
Exh. 9A, One of many documents where Richter referenced “Chris” instead of
“Flomo.”
Exh. 10, Email from the director of Training confirming that Tealeh
successfully completed all Child Welfare assignments.

vi

TABLE OF CONTENTS
Exh. 11, Email from Tealeh to Richter requesting a meeting to discuss
Richter’s discriminatory Practices.
Exh. 12, Traffic Ticket hearing letter.
Exh. 14, Fake Certificate that the Defendants created and submitted to the
trial court and the Eighth Circuits Court of Appeals to Support its false
narrative of multiple training provided to Tealeh.
Exh. 14A, Tealeh email to Richter informing Richter that a written complaint
would be submitted to Director Bliss regarding Richter’s discriminatory
practices.
Exh. 15, Certificate for Academic Excellence awarded to Tealeh.
Exh. 16A, email from Tealeh to Director Bliss requesting a meeting with
respect to Richter’s Discriminatory Practices and rumor about the traffic stop
Video Regarding Briana’s Friend.
Exh. 17, letter from Bliss extending Tealeh’s probation just few months into
Tealeh’s employment.
Exh. 18, the contradictory evaluation report Richter arbitrarily issued for
Tealeh to sign shortly after Tealeh complained of Richter’s discriminatory
practices, which Tealeh rejected.
Exh. 19, the evaluation report after Richter sudden resignation following
Tealeh’s complaint of Richter’s discriminatory practices.
Exh. 20, termination letter issued to Tealeh suddenly after Tealeh completed

vii

TABLE OF CONTENTS
the County’s New Hire Child Welfare Practitioner Training; asserting that
Tealeh lacked the knowledge of CPS Law, Child Welfare knowledge and the
skills needed for the position.
Exh. 22, Tealeh’s Complaint to Director Bliss with respect to Richter’s
discriminatory practices.
Exh. 23, emails Exchange Between Director Bliss and Lenaise Clark, Covert
Agent of Tealeh’s Former Employer (New York Foundling Hospital)
Discussed Tealeh’s termination and participation in a lawsuit against New
York Foundling, defamed and disparaged Tealeh two days into Tealeh’s
termination.
Exh. 24, the traffic ticket that Briana asked Tealeh to show her.
Exh. 25, email from Tealeh to Director Bliss informing Director Bliss that
Tealeh was attending a Family Service meeting for his Child Welfare Family
Service Plan Assignment.
Exh. 26-27, emails from Tealeh to Director Bliss attempting to secure a
meeting with Director Bliss with respect to Richter’s Discriminatory
behavior.
Exh. 28, Email from Tealeh to the Child Welfare Training Director, Peter
Lunseth, requesting that “Flomo” should be used for his certificate. United
States District Court for the District of North Dakota, Tealeh v. Ward
County, el al, No. l:17-cv-105 (March 28, 2019)

viii

APP4

TABLE OF CONTENTS
Tealeh’s Objection to the Report and Recommendation for summary
judgment, District Court for the District of North Dakota, Tealeh v. Ward
County, el al, No. l:17-cv-105 (February 17. 2020)....... AA98-AA112

Appendix F
Tealeh’s Ward County New Hire Child Welfare Practitioner Certification
Training performance report, (February 26, 2016)

AA124-AA132

Appendix G
Tealeh’s Resume and Job Application Submitted to Ward County for the
Family Services Specialist Position, (August 2015)

..AA64, AA113-AA117

Appendix H
Relevant Statutory Provisions
Title VII, 42 U.S.C. § 20G0e et seq.

.App 5

Appendix I
Relevant United States Supreme Court’s Opinions
Crawford v. Metro. Gov't of Nashville & Davidson Cty., 555 U.S. 271
(2009)

App. 6

Reeves v. Sanderson Plumbing Prods. Co., 530 U.S. 133, 151 (2000)....App7
TABLE OF CONTENTS

ix

Appendix J
Relevant U.S. Federal Rule of Civil Procedure
App8

Rule 56. Summary Judgment
Appendix K

Sown Statements by Director Bliss vigorously denying that Tealeh never
communicated to her any Complaint of Discrimination during Tealeh’s
Employment with the County...AAP9.
Statement by the Defendants that Tealeh failed to notify Defendants of any
Hostile, Retaliatory or Discriminatory Conduct...AAP10.
Admission by the Defendants that the County provided a Business Card,
which identified Tealeh as “Chris Tealeh,” and then issued Identification
Badge that identified Tealeh as “Flomo T.”...AAP11.
Statement by Richter, claiming that she wanted Tealeh to be Consistent with
his Name use when he represented Himself to the Public, other staff, and
other agencies to avoid any confusion...AAP12
Richter’s Admission that the Human Resources Department Advised her
Against her Preference for “Chris” Instead of Tealeh’s Name Choice “Flomo”

x

TABLE OF CONTENTS

Following Tealeh Complaint of Richter’s Discrimination based on Tealeh’s
name....AAP13.
Statements by Director Bliss in support of Tealeh’s termination asserting
that Tealeh failed to complete a Family Service Plan Assignment, and asked
a co-worker for a completed plan instead of completing it Himself...AAP14.
Improperly worded certificate fabricated by the Defendants; that the
Defendants falsely asserted was issued to Tealeh; which gave a false
impression that Tealeh received multiple training... AAP15.
One of multiple documents corroborating that Tealeh informed Defendants
That “Chris” is Tealeh’s former name and that “Flomo Tealeh” is Tealeh’s full
name....AAP16.

Appendix K

xi

TABLE OF AUTHORITIES
Page
Cases
12, 26

Anderson v. Liberty Lobby, Inc., All U.S. 242, 255 (1986)

Bienkowski v. Am. Airlines, Inc., 851 F.2d 1503 (5th Cir. 1988)....30
Brosseau v. Haugen, 543 U.S. 194,195, n.2 (2004)

26

Carter v. Three Springs Residential Treatment, 132 F.3d 635, 643 (11th Cir.
30
1998)
Celotex v. Catrett, All U.S. 317, 325 (1986)

35-36

Crawford v. Metro. Gov’t of Nashville & Davidson Cty._, 555 U.S. 271
(2009)
1, 21, 24, 35
Desert Palace, Inc. v. Costa, 539 U.S. 90, 100 (2003)

18, 22

Dixon v. Pulaski County Special School District. (8th Cir 2009)...... 13
24

Dragon v Connecticut, 211 F. Supp. 3d 441 (D.conn. 2016)

EL-HAKEMv. BJY1NC., 415 F.3d 1068 (9th Cir. 2005)......... 11, 16
Gilooly v. Missouri Department of Health, 421 F.3d
23
734 (8th Cir. 2005)
Harris v. Forklift Systems, Inc., 510 U.S. 17-(1993)
Hite v. Vermeer Manuf. Co., (8th Cir. 2006)
Hudson v. Tyson Fresh Meat, Inc. (8Th Cir. 2015)

25
22-23
22-23

Jones v. Gulf Coast Health Care of Del., LLC, 854 F.3d 1261, 1271 (11th Cir.
22-23
2017)
McDonnell Douglas v. Green 411, U.S. 792(1973)...!, 10, 29, 31-36

xii

TABLE OF AUTHORITIES
Price Waterhouse v. Hopkins, 490 U.S. 228, 258, 268-69 (1989)

10

Reeves v. Sanderson Plumbing Prods. Co., 530 U.S. 133, 151 (2000)... 10, 13,
17, 35-36
Sempier v. Johnson & Higgins, 45 F.3d 724, 729 (3d Cir. 1995)

30

Stallings v. Hussmann Corp., 447 F.3d 1041 (8th Cir. 2006)

18, 26

Swenson v potter, 271 F.3d 1184 (9th Cir. 2001)

24

Tealeh v. Ward County et al. (8th Cir. 2021)

31, 33

Texas Dept of Community Affairs v. Burdine 450, U.S. 248, 253 (1981)....ll
29, 34-35
Tolan v. Cotton, 572 U.S. (2014)

12

Univ. of Tex. Sw. Med. Ctr. v. Nassar, 570 U.S. 338, 347 (2013)
Weldon v. Kraft, Inc., 896 F.2d 793, 797-99 (3d Cir. 1990)
Wright v. West, 505 U. S. 277, 296 (1992)

27

United States Statutes:
Title VII, 42 U.S.C. § 2000e et seq

1, 10, 19, 23, 31
27

US Defamation Law (28 U.S.C § 4101)
Federal Rule
Fed. Rule of Civ. Procedure 56

17-19, 36

xiii

31

18, 35-36

United States Constitutions:
Fifth Amendment

19, 32-34

PETITION FOR WRIT OF CERTIORARI
Pro Se Petitioner, Flomo Tealeh, Child Protection Family Services
Specialist, Ward County, North Dakota, has advanced Bachelor of Science
degree in Social Work with over four years of work experience with adults,
children and family. Ward County hired Tealeh October 1, 2015. Mayl3,
2016, but terminated Tealeh abruptly after Tealeh communicated to Melissa
Bliss, Director, Social Services, Ward County and Sandy Richter, Supervisor,
Child Protection Service a belief that Richter had engaged in discriminatory
practices in violation of Title VII of the Civil Rights Act of 1964, 42 U.S.C. §
2000e et seq. The County subjected Tealeh to particular malicious
persecution and violated Tealeh’s constitutional and statutory rights. Tealeh
filed charges alleging discrimination, Fifth Amendment or Due Process rights
violation and defamation. The district court granted the defendants’
summary judgment and cost. The district court applied a new judicial created
standard in analyzing Tealeh’s claim, instead of the standard fashioned by
this Court, and ignored Tealeh’s other claims. The Eighth Circuit affirmed.
ORDERS/OPINIONS
Judge Duane Benton, Judge Michael J. Melloy, and Judge Jane Kelly
of the Eight Circuit Court of Appeals affirmed the district court’s judgment.
The Eighth Circuit’s judgment and unpublished opinion, Tealeh v. Ward
County el al were issued March 5, 2021, and the order for cost, Tealeh v.

xiv

Ward County el al was issued March 15, 2021. The District Court of North
Dakota’s Order granting the defendant’s summary judgment, Tealeh v. Ward
County el al, was issued on February 25, 2020. The District Court of North
Dakota’s Order granting defendants’ cost, Tealeh v. Ward County el al was
issued June 2, 2020, and The District Court of North Dakota’s Order denying
Tealeh’s motion to amend his complaint and compel, Tealeh v. Ward County
el al, was issued January 17, 2020. The District Court of North Dakota’s
recommendation for defendants’ cost, Tealeh v. Ward County el al, was filed
May 15, 2020. The District Court of North Dakota’s Report and
Recommendation to grant defendant’s Summary Judgment motion, Tealeh v.
Ward County el al was filed February 3, 2020.
JURISDICTION
The Eighth Circuit issued its opinion and denied Tealeh’s petition for
rehearing on March 5, 2021. Tealeh then filed this timely petition for
certiorari. This Court received Tealeh’s petition on July 27, 2021. This Court
instructed Tealeh to correct and resubmit the petition to this Court within 60
days. This Court has jurisdiction under 28 U.S.C. §1254(1).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Fifth Amendment of the United States Constitutions, Title VII Civil
Rights Act of 1964, 42 U.S.C. § 2000e et seq., reproduced at Appendix H,
App.5, and 28 U.S.C. § 4101.

xv

STATEMENT OF THE CASE
Congress passed Title VII of the Civil Rights act of 1964, 42 U.S.C § 2000e et
seq., and President Lyndon B. Johnson signed this statute in 1965 to combat prohibited
wrongful discrimination in the nation’s workplaces and in sectors of economic
endeavor.
Ward County subjected Tealeh to particular malicious persecution and arbitrarily
terminated him shortly after Tealeh complained of discrimination. Tealeh filed
discrimination charges, defamation and Fifth Amendment rights violations against the
defendants in die district court The district court granted the defendants’ Summary
judgment and cost. In doing so, the district court applied a different standard under the
McDonnell Douglass v. Green’s analysis instead of the standard fashioned by this Court
and held that Tealeh can’t establish prima facie case of discrimination. Similarly, the
district court ignored this Court’s instruction in Crawford v. Metro. Gov't of
Nashville & Davidson Cty„ 555 U.S. 271 (2009) that employee who
communicated to his or her employer a belief that the employer has engaged
in discrimination always constitutes activity protected by Title VII. Instead,
the district court held that Tealeh never engaged in protected activity because the
defendants’ conduct weren’t illegal and failed to adjudicate Tealeb’s defamation and
Fifth Amendment claims; and the Eighth Circuit affirmed. This Court has jurisdiction to
review the judgment.

1

RELEVANT FACTS
The County claimed that it terminated Tealeh because Tealeh lacked the
knowledge and skills for the job. It claimed Tealeh failed to complete a family
service plan assignment; Tealeh lacked knowledge of North Dakota CPS law
and policy; Tealeh lacked the skills needed in pursuit of a bachelor degree;
Tealeh violated County policy; and Tealeh engaged in inappropriate behavior.
2013, Tealeh legally changed his name from Chris to Flomo because he
wanted to identify with his ethnicity. Appendix E, Exh.2.
2014, Tealeh participated in a lawsuit against a former social service
female supervisor who engaged in various misconducts including sexual
misconduct. Tealeh’s former employer has since engaged in various covert
attempts to sabotage Tealeh’s employment opportunities in retaliation.
2015, Tealeh found fulltime Truancy Case Management position with
SEAMAAC in Philadelphia. SEAMAAC provides community*level services for
children and young adults. Tealeh wanted advancement in his education and
career and felt that to achieve this goal; he needed to work with agency that
offers more opportunity for advancement. Also he wanted to move faraway
from his former employer’s sphere of influence.
July 2015, Tealeh submitted an online application to Ward County for the
fulltime Family Services Specialist position. Tealeh felt the County was a
better fit. SEAMAAC provided positive recommendation to the County.

2

Tealeh received a job offer letter addressed to “Chris Tealeh” from
Bliss. Tealeh felt Bliss use of “Chris” instead of “Flomo” was a mistake.
Tealeh started work with the County October 1, 2015. Tealeh told
everyone including Bliss, Karen and Richter that his name is “Flomo.” Tealeh
felt it was important to let Bliss and Richter know to prevent a mistake
regarding his name going forward. Tealeh provided Social Security card,
driver license and FBI background check for employment verification and
showed his certificate of name change. Appendix E, Exh.2-4.
In October 2015, Supervisor Sandy Richter issued Tealeh several
dozens business cards with “Chris” and told him to give to the County’s
clients and other professionals when doing County’s Business. Tealeh
thought Richter made a mistake. Tealeh asked Richter to change “Chris” to
“Flomo.” But Richter refused and told Tealeh that “Chris” sounds better.
Tealeh felt uncomfortable; then asked Karen, Administrative Secretary to
make him new cards with “Flomo.” Tealeh tried to persuade Karen to.get him
new cards with “Flomo.” So he told Karen that giving the public and/or
clients business card with a different name would confused them and could
be an issue. Karen told Tealeh, “If anyone calls with concerns about your
name, we will tell them we know who you are.” Also Tealeh tried to persuade
Richter, she refused and told Tealeh, “Chris sounds better.” Then Tealeh told
Richter it was not right to give him business cards with name that he doesn’t
want. Also Richter told the IT technician to use “Chris” to setup the State

3

database and computer user identification and password. The technician was
unable to setup the computer under “Flomo.” As a result, Tealeh was not able
to access the computer or State database to perform certain task.
The County requires Child Welfare Certification Training for new
hired. Richter registered Tealeh for the training as “Chris.” Tealeh was
unable to book room at the university for training. A training attendee had to
help identify Tealeh before he was able to book a room. Tealeh told Richter
about this situation but Richter ignored him.
In November 2015, Weird County Social Services was scheduled to
move to its new building. The moving lasted through December 2015 because
the building was still undergoing construction. The County has not assign
Tealeh any case to work on this time. But Tealeh helped setup conference
rooms and offices for some older employees who could not meet the physical
challenges involved with the move. Tealeh sat in regular office meetings.
Tealeh read materials in preparation for the County’s new hired Child
Welfare Certification Training while he awaited Richter’s direction. Appendix
E,App.4,p.5f 16-18.
Late December 2015, Richter told Tealeh to share a case with Briana.
Also Richter assigned one other case to Tealeh. Tealeh was scheduled to
make follow-up visit to one of those eases regarding a report of dirty home.
Previously Tealeh completed an assessment with the caregiver about the
report and the County recommended that the caregiver should clean the

4

home and install fire alarm. Tealeh was visiting to check whether the
caregiver implemented the County’s recommendations. Richter followed
Tealeh and demanded that Tealeh perform interview. Richter provided no
reason to interview the caregiver when asked. The caregiver was frightened
and uncomfortable by Richter’s demand. The Caregiver only expected to show
Tealeh that she implemented the agency’s recommendations. Tealeh felt
Richter’s behavior was strange, unprofessional and conspicuously illogical.
Appendix E, App.4, p.6 123.
January 2016, Tealeh was scheduled to visit a client. Richter gave
Tealeh a letter to give to the client. Richter introduced Tealeh to the client as
“Chris.” Tealeh asked Richter to change “Chris” to “Flomo.” Richter refused
and told Tealeh, “there is no time for that; the name isn’t a big deal.” Later
that day Tealeh informed Richter to use “Flomo” instead of “Chris” going
forward. Richter told Tealeh, ‘Tour college transcript has “Chris ” Richter
told Tealeh to go to the federal court across the street; and change “Flomo”
back to “Chris ” At this point Tealeh felt that Richter’s repeated refusal to
consider his choice of name and continued attempts to coerce him to change
his name to a name that Richter preferred was harassment and
discrimination. Tealeh told Richter her behavior was discrimination and
harassment and asked her to stop. Richter got angry and left. Tealeh didn’t
hear from Richter for several days and felt she was angry.

5

In January 2016, Tealeh got a ticket for alleged failure to signal.
Tealeh was scheduled to court to argue the ticket based on video evidence.
January 19, 2016, Briana, white female coworker, asked Tealeh for the name
of the officer who issued the ticket. Tealeh told Briana the officer name was
James. Briana told Tealeh there are two James at the Minot Police
Department and she told Tealeh one of them is her best friend. Tealeh told
Briana that he doesn’t remember James’ last name. Briana told Tealeh she
wanted to see the ticket to know the officer last name if the officer was her
friend. Tealeh told Briana he doesn’t have the ticket on him. Then Briana
asked Tealeh to bring the ticket. Tealeh brought the ticket the next day.
Briana came to Tealeh’s office and he showed her the ticket. Briana told
Tealeh the officer is her best friend and she told Tealeh, “ Just pay the fine,
$20 dollar is nothing.” Briana told Tealeh the police cut her speeding but she
got away with it because the officer knows her mother. Briana kept telling
Tealeh that $20 dollars is nothing just pay. From one thing to another Tealeh
and

Briana

started

arguing

about

black

people

been

ticketed

disproportionately than White. Tealeh told Briana he could not get away for
speeding as she easily got away because he is not Briana. Briana got angry
and walked out of Tealeh’s office straight into Richter’s office; spent lot of
time talking with Richter. Appendix E, App4, p. 13 f 51, Exh.12, 24.
About February 2016, what Tealeh though were strange encounters
quickly developed into an evaluation report. Richter suddenly gave Tealeh a

6

review to sign, Tealeh read the review and felt that the review was false and
fabricated with a purpose to ruin his career, tarnish his reputation and have
him fired. Tealeh refused to sign the report. Richter portrayed Tealeh as
lacking knowledge of the job. Richter claimed Tealeh was unable to conduct
interview with a caregiver. Richter accused Tealeh of inappropriate behavior
toward Briana and accused Tealeh of County’s policy violation. Richter’s
report was contradictory and incoherent; likewise defamatory, malicious,
outrageous and despicable. Appendix E, Exh.19, p.1-6, Appendix D, AA9AA11,1 35-36.
In February 2016, Tealeh told Bliss that Richter’s behavior were*
discrimination, harassment, defamation and prejudice and wanted Richter to
stop. Appendix E, Exh.22. Then Bliss and Tealeh briefly met with Richter.
Tealeh told Bliss that Richter’s report was false and wanted him fire.
There were too much tension at the office due to Richter’s report and
rumors about the traffic ticket video regarding Briana’s friend been posted on
YouTube. Some employees criticized Tealeh and avoided him. Richter
suspended Tealeh’s CPS meeting participation.
In February 2016, Tealeh met with Bliss and asked her to investigate
Briana and Richter’s conduct. But Richter resigned suddenly in March and
Tealeh’s complaints were never investigated.
About February 22, 2016, Bliss extended Tealeh’s probationary period
to October 1, 2016, even though Tealeh’s initial six-month probation that was

7

due to end in May 2016 was not halfway completed. Bliss claimed in the
letter she and Richter discussed performance issues with Tealeh, despite
Tealeh’s immediate rejection of the notion that he have performance issues.
Appendix E, Exh.l & 17.
March 24, 2016, Tealeh was scheduled back to the University of North
Dakota for training. Bliss came to Tealeh’s office and told Tealeh that she
removed Richter’s boundary issues from the evaluation report because it was
wrong and inappropriate. Bliss told Tealeh the evaluation would only
contains performance improvement Plan (PIP) with a goal to complete the
Child Welfare Training and work with Kim. Tealeh told Bliss that there was
not any performance problem but staging a cover-up for his termination.
Bliss told Tealeh, “don’t worry about that; just complete the Child Welfare
Training.” Bliss told Tealeh his probationary period would end July 1, 2016,
instead of October 1, 2016. Appendix E, Exh.17, 18 p.6. Tealeh felt the
County would eventually terminate his employment because Bliss repeatedly
deviated from his probation plan and setup unwarranted PIP. Tealeh could
only follow Bliss’ instruction and hope that the situation would improve.
About May 5, 2016, Tealeh successfully completed the County’s Child
Welfare Practitioner Certificate Training. Appendix E, Exh.7, 8 & 10.
May 13, 2016, Bliss suddenly called Tealeh into her office and handed
Tealeh a termination letter; claimed that Tealeh lacked the knowledge and
skills required for the job. Appendix E, Exh.20

8

Before Tealeh had full understanding of what had happened, within
two days of his termination, Lenaise and Bliss discussed that Tealeh was
vindictive toward his former employer by participating in a lawsuit against
his former employer. Lenaise and Bliss planed that the police should escort
Tealeh out of the office because of his participation. Tealeh only got to know
Lenaise and each of the defendants at the office and never met them prior.
Based on Lenaise and Bliss* discussion, Richter’s behavior and reasonable
suspicions, Tealeh believes that the County conspired with his former
employer to sabotage his employment in retaliation for engaging in protected
activity. Appendix E, App.4, f 94-96, Exh.23, AAlOlf 9.
ON APPEAL
Tealeh renewed his argument that his Title VII, § 2000e-2(a) and §
2000e-3(a) rights were violated when the County terminated his employment
shortly after he communicated to the County a belief that Supervisor Richter
had engaged in discriminatory practices. Tealeh reiterated that Richter and
the County’s harassed him; discriminated against him based on his ethnic
identity and for engaging in protected activity and failed to investigate his
discrimination complaint. Tealeh argued that the Defendants violated his
rights under US Defamation Laws when Richter, Lenaise and Briana
knowingly and maliciously fabricated false stories; published and distributed
them to a third party with reckless disregard for his rights. And lastly,
Tealeh argued that the County violated his Fifth Amendments rights when

9

Richter maliciously made up false story that Tealeh had inappropriate
behavior and that he violated County’s policies, and took disciplinary action
without any due process.
1. Status Discrimination.
This Court held that a plaintiff in an employment discrimination case
may prove discrimination by direct evidence or the McDonnell Douglas v.
Green, 411 U.S. 792 (1973) burden-shifting analysis where the plaintiff lacks
direct evidence. Reeves v. Sanderson Plumbing Prods. Co., 530 U.S. 133, 151
(2000).

I.

Direct evidence

This Court has said, a plaintiff can prove a claim of discrimination by either
direct evidence that a workplace policy, practice, or decision relies expressly
on a protected characteristic. In Price Waterhouse v. Hopkins, 490 U.S. 228,
258, 268-69 (1989), a plurality of this Court held that the discrimination
provision of Title VII of the Civil Rights Act of 1964, 42 U.S.C. § 2000e-2(a),
requires a plaintiff to prove only that discrimination was "a motivating
factor" for an adverse employment action.
Tealeh argued that the County discriminated against him when the
County made the decision to issue him County’s business cards with a name
that he doesn’t want and the County’s refusal to accept his choice of name
and repeated attempts to coerce him to change “Flomo” to “Chris,” a name
that the County preferred for its’ business purposes. Appendix E, Exh.6.

10

Tealeh felt that the County believes that Tealeh’s ethnic name “Flomo” was
not good for the county’s business purposes motivated the County’s decision.
The County’s decision escalated into a hostile work environment and
retaliation. A supervisor’s repeated referencing or preferring a name for an
employee outside the employee’s choice is discrimination. EL-Hakem v. BJY
inc., 415 F.3rd 1068 (9th Cir. 2005). The district court erroneously held that
Tealeh doesn’t have direct evidence and the Eighth Circuit agreed.
II.

McDonnell Douglas* Burden-Shifting Analysis

In Texas Dept of Community Affairs v. Burdine 450, U.S. 248, 253
(1981), this Court instructed that an employment discrimination plaintiff
may apply the McDonnell Douglas’ burden-shifting analysis to establish a
prima facie case and pretext evidence.
a. Prima Facie
First, Tealeh argued that he belongs to a protected class. The
defendants conceded and the district court agreed.
Second, Tealeh argued that he possessed the education, skills and experience
necessary to perform the essential function of the job. Tealeh has a Bachelor
of Science degree in Social Work with more than four years* work experience;
held positions as a Child Protective Specialist, Case Planner, Truancy Case
manager and have received various awards including been named to the
dean’s list of York College of the City University of New York for academic
excellence. Tealeh successfully completed all required assignments and tasks

11

for the County's new hire Child Welfare Practitioner Certificate Training
with excellent performance in Child abuse and neglect or Child Maltreatment
and North Dakota CPS Law and Policy. The trial court concurred. Appendix
E, Exh.5,7-8, 10&15, Appendix F, AA124-132. Instead of considering Tealehs
objective qualifications, the trial court held that courts are split on the issue
of a plaintiff qualification and the employer’s “legitimate expectation." The
trial court believed the defendants’ explanation that Tealeh failed to meet the
County’s “legitimate expectation,” adopted the employer’s ‘legitimate
expectation” standard, and circumvented this Court’s guidance, believed the
Defendants’ explanation, ignored Tealeh’s prima facie evidence, conflicted the
McDonnell Douglas’s analysis and erroneously analyzed Tealeh’s prima facie
case and held that Tealeh failed to establish a prima facie case. The Eighth
affirmed the trial court’s decision.
This Court has instructed that, “Judge’s function at summaiy judgment is
not to weight the evidence and determine the truth of the matter but to
determine whether there is a genuine issue for trial.” Tolan v. Cotton. U.S.
572 (2014). In Anderson v. Liberty Lobby, Inc,. All U.S. 242, 255 (1986) this
Court instructed that in ruling on summary judgment motion, “[t]he evidence
of the non-movant is to be believed and all reasonable inferences are to be
drawn in his or her favor.” The trial court disregarded this Court’s
instruction.

12

And third, Tealeh argued that he suffered several adverse employment
actions as a result of the defendants’ discriminatory practices. Tealeh was
alienated and prohibited from attending CPS meetings, ridiculed, subjected
to false accusations, punished, his reputation and career ruined and
terminated. The district court erroneously held that Tealeh’s termination
was the only adverse action.
b. Pretext
In Reeves v. Sanderson Plumbing Prods. Co., 530 U.S. 133, 151 (2000),
this Court instructed that a plaintiff may establish pretext by showing that
the employer is unworthy of credence because it’s explanation is false. Also in
Dixon v. Pulaski County Special School District. (8th Cir. 2009), the court
stated, a plaintiff can establish pretext either by showing the employer’s
proffered explanation is unworthy of credence because it has no basis in fact;
contradictory, employer deviated from its policy or prohibited reasons more
likely motivated the employer.
First, Tealeh argued that the County’s explanation that he lacked the
skills and knowledge for the job is false. The County’s performance review
and explanations are arbitrary and inaccurate measure of Tealeh’s
knowledge, skills and performance. The County offered Tealeh the position on
the basis of Tealeh’s education, experience, his demonstrated ability on the
County’s written test for the position and positive recommendation by
Tealeh’s prior employer. Tealeh’s test scores in the County’s Child Welfare

13

Practitioner Certification Training, certificate and letters from Pete Tunseth,
Director of training, his work experience and education and the County’s
written test for the position are accurate and objective measure of Tealeh’s
knowledge, skills and performance and established that Tealeh has the
education, skills, experience and training necessary to perform the essential
job function. The district court agreed. Appendix C, ADDU p.ll f 1-2. See
also Appendix E, App.4 f63-f 74 & P-Exh.5, Appendix F, AA124-132.
Second, Tealeh argued that Director Bliss’s explanation that Tealeh
failed to prepare family service plan assignment has no basis in fact.
Appendix K, AAP14. The record showed that Tealeh attended a family team
meeting for the family service plan and completed the plan. See Appendix E,
Exh.8, 10 & 25.
Third, Tealeh argued that the County’s explanation that after the child
welfare training, still he lacked the skills and knowledge needed to perform
the job is false, outrageous and despicable. The County made the decision to
terminate Tealeh’s employment while Tealeh was in training. Tealeh
completed the Child Welfare Training about May 5, 2016 and the County
terminated Tealeh on May 13, 2016. Tealeh was never given the opportunity
to apply his experience and the knowledge and skills acquired. Considering
Tealeh’s excellent performance at the training, reasonable fact finder could
find that Tealeh met the County’s requirement for the job and could find the
County’s assertion implausible.

14

Fourth, Tealeh argued that the County’s explanation that it wanted
Tealeh to be consistent with his name use is contradictory. See AAP12. The
record shows the County issued Tealeh two identification cards with two
different names. The County issued business cards with "Chris” and a work
ID card with "Flomo.” Appendix E, Exh.6, Appendix K, AAP11, AAP13
Fifth, the County’s explanation that it referred to Tealeh as "Chris”
because Tealeh submitted a resume with “Chris” is false. The record showed
Tealeh submitted resume with “Flomo” and it matched the information on
the job application submitted to the County and the one with "Chris” doesn’t
matched. Appendix G, AA64 &AA113-AA117. The record also established
that Tealeh provided US government issued identification cards with "Flomo”
for employment verification and repeatedly informed Richter and Director
Bliss he preferred “Flomo.” Appendix K, AAP16. Tealeh used his email
registered under his previous name to request a meeting with Richter with
respect to the workplace condition due to Richter’s discriminatory behavior.
Defendants seem to argue that Tealeh legally change his name only to prefer
the name he doesn’t want. Reasonable fact finder could find that implausible.
Sixth, Bliss’ asserted that Tealeh never communicated to the County a
belief that Richter engaged in discriminatory practices Appendix K, AAP9,
Appendix K, AAP10. The record shows that Tealeh communicated to the
County about Richter’s discriminatory behavior. Appendix E, Exh.ll, 14A,
16A, 22.

15

Seventh, the County’s explanation that Tealeh lacked the core
competency skills required in pursuit of Social Work Degree and not able to
work independently; inappropriate behavior toward coworkers and violated
the County’s policy is false and contradictory and senseless. The County’s
own record contradicts it’d assertion. Director Bliss and Richter made these
assessments regarding Tealeh’s work practice in relevant part.
"Tealeh has, positive attitude with staff; the ability to work with others
regardless of position, build positive working relationships, shows sensitivity
to and consideration of others’ feelings, makes positive contributions to
morale; the ability to adapt to changes and deal with a variety of situations;
willingness to assist coworkers or to work extra hours when needed;
understand and comply with county policies; dependable, can be counted on
for attendance, to carry out assignment with careful follow-through and
follow-up; meets predetermined targets and goals; can overcome obstacle to
meet goals; can adapt to changes as necessary and can be counted on for
consistent performance, is personally accountable for his own actions;
performs activities in a safe manner and understands and supports the
Ward County Risk Management Program; the ability to organize one’s time
in order to maximize efficiency in processing paperwork, determining
priorities, and reducing job overload; the ability to be self reliant in
managing work and in follow-up; and the ability to analyze conflict
situations and apply the best approach in a particular situation.” Appendix
E, Exh. 18&19 p.l 1 4 & 6, p.2 f 1-4.
Eighth, Tealeh argued that Richter deviated from the County’s
probation plan when Richter arbitrarily gave him evaluation report shortly
after he communicated to Richter that her repeated attempts to coerce him to
change “Flomo” to a name preferred by the County and Richter’s refusal to
accept his choice of name was a discrimination and intimidation. EL-Hakem
v. BJYinc., 415 F.3”11068 (9th Cir. 2005).

16

Tealeh was required to complete six-month probation. The County was
to notify Tealeh of its decision whether to extend the probation within fifteen
days after completion of the six-month. Appendix E, Exh.l. The notice should
have been issued in May 2016; instead January 2016, barely three months
into Tealeh’s probation, Richter suddenly issued Tealeh a review. Tealeh
argued that his ethnic identity motivated Richter’s attempts to coerce Tealeh
to change his name and rejected “Flomo” and to issue business card with
name that the County preferred. Tealeh’s complaint motivated Richter’s
arbitrary evaluation report because Richter’s explanation for issuing Tealeh a
negative review is less than candid.
And ninth, Tealeh argued that documentations including emails and a
Wraparound Certificate submitted to the trial court and the Eight Circuit by
the County are fake and fraud. Appendix K, AAP15.Tealeh argued that the
County created those records as a result of this lawsuit.
Tealeh argued that genuine material facts exist because the County is
unworthy of credence because its explanations are false; therefore the County
is not entitled to a summary judgment. Reeves v. Sanderson Plumbing Prods.
Co., 530 U.S. 133, 151 (2000). See Fed. Rule Civ. Proc. 56 reproduced at
Appendix J, App. 8. In Reeves v. Sanderson Plumbing Prods. Co., 530 U.S.
133, 151 (2000), this Court said, “the fact-finder’s disbelief of the reasons put
forward by the defendant (particularly if disbelieve is accompanied by a
suspicion of mendacity) may, together with the elements of the prima facie

17

case, suffice to show intentional discrimination, thus, rejection of the
defendant’s proffered reasons will permit the Trier of Fact to infer the
ultimate fact of intentional discrimination.” Similarly, Wright v. West, 505
U.S. 277, 296 (1992), this Court held, “Proof that the defendant's explanation
is unworthy of credence is simply one form of circumstantial evidence that is
probative of intentional discrimination, and it may be quite persuasive.
"[Pjroving the employer's reason false becomes part of (and often considerably
assists) the greater enterprise of proving that the real reason was intentional
discrimination"). In appropriate circumstances, the Trier of fact can
reasonably infer from the falsity of the explanation that the employer is
dissembling to cover up a discriminatory purpose. Such an inference is
consistent with the general principle of evidence law that the fact-finder is
entitled to consider a party's dishonesty about a material fact as "affirmative
evidence of guilt."
Facts, combined with disjointed information, contradiction and/or
prima facie and pretext evidence are exactly the kinds of circumstantial
evidence sufficient to create a genuine issue of material fact of a causal
connection. Desert Palace, Inc. v. Costa, 539 U.S. 90, 100 (2003). See
Stallings v. Hussmann Carp., 447 F.3d 1041 (8th Cir. 2006). Tealeh’s prima
facie evidence and pretext evidence establish that the County’s proffered
explanations for its decision are false and accompanied by dishonesty. The
trial court ignored Tealeh’s prima facie and pretext evidence, disregarded

18

Fed. Rule Civ. Proe. 56, this Court’s guidance and intervening precedence,
and erroneously held that there is no genuine issue of material fact and the
Eighth Circuit agreed.
2. Retaliation
Title VII, §2000e-3(a) prohibits employer’s retaliation on account of an
employee’s opposition to employment discrimination, and the employee’s
submission of or support for a complaint that alleges employment
discrimination.
In University of Texas Southwestern Medical Center v. Nassar. 570
U.S.

(2013), this Court held that “a plaintiff making a retaliation claim

under § 2000e- 3(a) must establish that his or her protected activity was a
“but-for” cause of the alleged adverse action by the employer. This requires
proof that the unlawful retaliation would not have occurred in the absence of
the alleged wrongful action(s) of the employer.”
Tealeh argued that his discharge and other adverse actions would not
have taken place “but for” engagement in the protected activity.
Tealeh opposed Richter’s decision to issue him county’s business cards with
“Chris,” a name that Tealeh doesn’t want, repeated attempts to coerce Tealeh
to change “Flomo” to “Chris” a name the County preferred on it’s business
purpose. Richter suddenly issued Tealeh a negative evaluation; made wild
accusations that Tealeh lacked knowledge in North Dakota CPS Law,
behaved inappropriately toward coworkers and violated County’s policy.

19

Richter contradicted herself in the same review stating that Tealeh have
positive attitude and positive relationship with staff and comply with the
County’s policy. Richter issued the evaluation report one week after Tealeh
complained that Richter’s behavior was discrimination. Richter’s accusations
and disciplinary action without any inquiry or justification harmed Tealeh’s
reputation and ruined his career.
Tealeh argued that prior to Richter’s abrupt evaluation, he never had
any performance concerns or any report of negative behavior. Tealeh’s
opposition to Richter’s attempts to change his name caused Richter to issue
negative review. Richter issued the review shortly after Tealeh complained of
Richter’s behavior. Richter would not have issued negative review in the
absence of Richter’s decision and Tealeh’s opposition because the County
cannot provide any logical and/or factual explanation for Richter’s arbitrary
review and deviation from the County’s probation plan.
Tealeh argued that he communicated to Director Bliss a belief that
Richter had engaged in discriminatory practices. The trial court erroneously
held that, “Tealeh cites no evidence showing that Richter harassed him to
change his name. Tealeh used both names, leading to confusion on the
defendants’ part; no jury could reasonably conclude this confusion constitutes
unlawful discrimination, as such there was no unlawful activity for Tealeh to
oppose.” Appendix C, ADDU p.18 f4, p.19 T|l. Eighth Circuit affirmed. The
trial court ignored Tealeh’s evidence and erroneously analyzed protected

20

activity that the defendant’s conduct must be illegal for a plaintiffs to engage
in protected activity. In Crawford v. Metro. Gov’t of Nashville & Davidson
Ctyx, 555 U.S. 271 (2009), this Court unanimously held that “When an
employee communicates to her employer a belief that the employer has
engaged in a form of employment discrimination, that communication
virtually always constitutes the employee’s opposition to the activity.”
Tealeh argued that he suffered adverse employment actions because of
his opposition to Richter’s discriminatory practices. The County prohibited
Tealeh’s participation in CPS staff meetings, made false accusations, ruined
Tealeh’s reputation and career, punished Tealeh and terminated his
employment.
Absence Richter’s discrimination and Tealeh’s protected activity,
neither Richter or the County could have made those adverse employment
decisions because Tealeh’s prima facie and pretext evidence established that
the County’s argument is untenable because it is apparent that the County’s
explanations for its decisions are false. The County is negligent for the
adverse employment actions because the County has a duty under Title VII, §
2000e-3 (a) but failed to uphold that duty.
Likewisw, Tealeh argued that his participation in a lawsuit involving a
former employer played a significant factor in the County’s decisions.
Tealeh’s opposition combined with his participation was the “but-for” cause of
the Countys adverse actions. Within two days of Tealeh’s termination,

21

Director Bliss and Lenaise, an employee and agent of Tealeh’s former
employer, discussed that Tealeh was vindictive to his former employer
because Tealeh participated in a lawsuit against his former employer.
Because of Tealeh’s protected activity, Bliss and Lenaise discussed plan to
have a police officer escort Tealeh out of the office. Appendix E, Exh.23
The oddly timing between Tealeh’s complaints about Richter’s
discrimination and Richter’s abrupt evaluation and arbitrary corrective
actions a week after Tealeh complained and sudden termination two months
following the complaints gave the appearance, and reasonable inference, that
the County ended Tealeh’s employment because of the protected activity.
These facts, combined with the disjointed, contradictory, disorganized
evaluation process that Tealeh was subjected throughout his employment,
and the Countys false and dishonest explanations for its decisions are the
kinds of circumstantial evidence sufficient to create a genuine issue of
material fact of a causal connection. Desert Palace, Inc. v. Costa, 539 U.S. 90,
100 (2003).
Tealeh argued that the issuance of negative review, corrective action
within a week after he complained of Richter’s discriminatory practices;
sudden

termination

two

months

following

Tealeh’s

complaints

of

discrimination and within two days of Tealeh’s termination, Director Bliss
and Lenaise’s plan to have Tealeh escorted out the office because Tealeh
engaged in protected activity, satisfy the requirement that the protected

22

activity and adverse employment actions are not “wholly unrelated.” Hite v.
Vermeer Manuf. Co., (8th Cir. 2006), Jones v. Gulf Coast Health Care of Del.,
LLC, 854 F.3d 1261, 1271 (11th Cir. 2017), also Hudson v. Tyson Fresh Meat
. Inc., (8th Cir. 2015).
In

Gilooly

v.

Missouri

Department

of Health,

421

F.3d

734 (8th Cir. 2005), the court held that, “When an employer is presented with
a “he said, she said” set of facts involving two employees, and the employer
chooses to disbelieve and discipline the employee who had engaged in
protected opposition to unlawful activity, then the employee’s claim of
retaliation must go to a jury.” (internal quotations omitted).
3. Failure to Investigate Discrimination
Title VII prohibits wrongful discrimination in the workplaces and
required employers to investigate complaint of discrimination and/or
harassments.
Tealeh argued that Richter, Bliss and the human resource had
knowledge of his complaint but failed to investigate.
Additionally, Richter claimed December 23, 2015, Briana reported to
her that Tealeh made comments that Briana felt was uncomfortable and also
claimed Tealeh offered to purchase provocative clothes for female coworkers.
Richter never provided the names of the female coworkers. December 2015
thru February 2016 Richter met with Tealeh, but never at anytime discussed
any complaints or concerns with Tealeh. Richter waited several months,

23

never investigated, reached conclusions, and took corrective actions against
Tealeh; a week after Tealeh complained of Richter's discrimination.
The court in Dragon v Connecticut, 211 F. Supp. 3d 441 (D. Conn.
2016), held that “An employer’s inadequate or bad faith investigation is a
basis for holding the employer liable for racial and sexual harassment in the
workplace.” See also Swenson v potter, 271 F.3d 1184 (9th Cir. 2001) and
Crawford v. Metro. Gov't of Nashville & Davidson Cty^ 555 U.S. 271 (2009).
The district court failed to consider Tealeh’s evidence and failed to
draw all inferences in Tealeh’s favor but erroneously held, “The conduct
Tealeh complains, to the extend that it occurs at all, does not rise to the level
of discrimination and harassment.”
“Judge’s function at summary judgment is not to weigh the evidence and
determine the truth of the matter but to determine whether there is a
genuine issue for triaL” Tolan v. Cotton, supra at 572, same Hudson v. Tyson
Fresh Meat, Inc. (S7*1 Cir. 2015).
The district court usurped the role of the juror, and also made erroneous legal
conclusion.
4. Hostile Work Environment.
Tealeh argued that he was subjected to a hostile work environment.
Tealeh has just moved from Pennsylvania to North Dakota to work with the
County, knew nobody in Minot. The County prohibited Tealeh name from the
County’s business cards, issued Tealeh County’s business cards with name
that it preferred, attempted to force him to change “Flomo” to “Chris,” made
false accusations against him and took disciplinary actions that was

24

unwarranted without any due process, shortly after Tealeh complained about
Richter’s discriminatory behavior. Bliss and Lenaise threatened to have the
police escort Tealeh out of the office for engaging in protected activity;
Richter exposed Tealeh to unwarranted ridicule, Bliss, Misty and other staff
made false claim that Tealeh failed to complete family plan assignment;
accused Tealeh of been incompetent, lied on Tealeh for inappropriate
behavior, and made him feel venerable, anxious, disadvantaged, excluded
from CPS staff meetings, ridiculed for participation in previous lawsuit
against a former employer, Tealeh’s reputation and career were ruined,
Tealeh felt that the world have caved in on him and felt unsafe. Tealeh
argued these encounters were highly severed and pervasive; altered his work
relationship and condition. Appendix D, AA21 193-AA22 1 100, AA6-AA9 131,
133-135, AA13-AA15 139, 141, 145, 149, AA17-AA19 161-162, 166, 168, 172,
175, 177. Appendix E, Exh.l4A, 16A, 19, 22, 23. Tealeh argued any
reasonable person in the same position, could conclude that Tealeh’s
experience was a severe and pervasive hostile work environment considering
all circumstances Tealeh experienced, interfered with Tealeh’s work
performance altered his work relationship and condition. In Harris v. Forklift
Systems, Inc., 510 U.S. 17-(1993), this Court held that, hostile work
environment should be considered from the objective view of the overall
circumstances of the individual victim. Considering Tealeh’s prima facie and
pretext evidence and the circumstances as a whole, reasonable fact-finders

25

could conclude that Tealeh was subjected to hostile work environment. The
trial court failed to consider Tealeh’s pretext evidence and all circumstances,
made erroneous conclusion of fact and erroneous legal conclusion. The district
court believed only the County’s explanations, and erroneously held that:
“There are boundless reasons why two employees meet and that
concerns about Tealeh’s employment predicted any conversation on January
20, 2016; the facts that Tealeh argued with a co-worker, that the co-worker
later met with a supervisor, and Tealeh eventually received a poor
performance review, don’t raise to the level of a hostile work-environment.
“Tealeh’s allegations are insufficient to raise a genuine issue of material fact
on the issue of any harassment whatsoever”. Appendix C, ADDU p2113, p.23

13.
The trial court failed to consider Tealeh’s evidence, instead considered
the County’s mere explanations. There are genuine issues of material fact
whether Bliss, Richter and interested witnesses’ explanations are unworthy
of credence. Tealeh’s Prirna facie and pretext evidence do just that. See
Stallings v. Hussmann Corp., 447 F.3d 1041 (8th Cir. 2006).
In ruling on summary judgment motion, “[t]he evidence of the non movant is
to be believed and all reasonable inferences are to be drawn in his/her favor.”
See Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 255 (1986).
The trial court's decision erroneously usurped the jury's fact-finding
duty. This Court held that, “courts may not resolve genuine disputes of fact in
favor of the party seeking summary judgment.” See Brosseau v. Haugen* 543
U.S. 194, 195, n.2 (2004) (per curiam).

26

5. Defamation and Due Process.
28 U.S. Code § 4101 prohibits any person from publishing and
distributing false information about a person.
Tealeh argued that the Defendants made defamatory statements about
him. The defendants' defamatory statements have harmed Tealeh's career,
character and emotion. Richter, Briana, Bliss and Lenaise falsely accused
Tealeh of inappropriate behavior, incompetency without any evidence;
Lenaise and Bliss discussed that Tealeh harassed a female he worked with in
Philip and the employer allowed Tealeh to getaway with it. Lenaise falsely
stated Tealeh has a history of vindictive behavior toward a former employer.
Defendants published and distributed these false statements to a third party.
Defendants knew these statements were false but published and distributed
them. As a result of these false statements, Tealeh continue to suffer
emotional distress, Tealeh’s character and career are ruined. Tealeh have
struggled to find employment in his profession with no success. Appendix D,
AA18 f 66, AA21f89, AA22 f99. See also Appendix E, App.4 f 31, f 94-96, PExh.22-23, AA101 1(8- If9. The trial court has jurisdiction but failed to
adjudicate Tealeb’s defamation claim.
The Fifth Amendments of the US Constitution prohibit a state or
government and or its person against harming any person without following
the exact course of the law.

27

Tealeh argued that the County deprived him of Due Process. Richter
falsely accused Tealeh of offensive sexual behavior, denied Tealeh
opportunity to defend himself; made conclusion of fact and took corrective
actions against Tealeh. Appendix E, App.4 Tf31, f 52. As a result, Tealeh
suffered and continued to suffer emotional distress, due process deprivation,
reputation and career harmed. The trial court has jurisdiction, instead failed
to adjudicate Tealeh’s Fifth Amendments claim. This Court should review the
trial court's decision not to adjudicate.
6. Motion to Amend Complaint
The trial court erroneously stated Tealeh never requested to amend
his Complaint. Appendix C, ADDU p. 4 f 1. March 11, 2019, motion to amend
Tealeh’s Complaint was filed and was denied. Appendix B, ADD4. Tealeh
appealed the district court’s decision. The Eighth Circuit Court of Appeals
said it has no jurisdiction.
7. Defendants’ Bill of Cost.
Tealeh argued that the defendants are not entitled to summary
judgment and cost because the defendants’ reasons for its decision are less
than candid. Additionally, Tealeh has not exhausted every available legal
remedy that could justify the grant of summary judgment and cost. The trial
court abused its discretion by erroneously awarding defendants’ bill of cost.
The Eighth circuit affirmed. This Court should review the decision.

28

REASONS FOR GRANTING THE PETITION
The Eighth Circuit’s decision deepens an entrenched circuit conflict
and contradicts the clear teaching of this Court’s decisions in Green and
Burdine. The circuits have embraced at least two different views of the
standard of prima facie second prong. The issue is important, the circuit split
is entrenched, and the decision is erroneous. The case for plenary review is
apparent. In addition, this Court should grant certiorari to eliminate the
threat to Title VII, Fifth and 28 U.S.C. § 4101 values posed by the decision.
As this Court made clear in Tolan, the grant of summary judgment is
appropriate where there is no genuine issue of material fact. See also Fed.
Rule of Civil Prod. 56.

This Court should grant review on all questions

presented.
1. The Eighth Circuit Compounded A Circuit Conflict And
Misapplied This Court’s Precedent On The Plaintiff’s Objective
Qualification Standard.
In holding that a plaintiff can establish a prima facie case of
employment discrimination using the McDonnell Douglas v. Green's analysis
by a plaintiff showing that he or she belongs to a qualified group, qualified for
the position and suffered adverse employment action(s), then the defendant is
provided an opportunity to rebuff the Plaintiffs prima facie by producing a
non-discrimination reason(s) for its decision, and then the burden shifts back
to the plaintiff to establish a pretext by showing that the defendant’s
explanation is false; the Eight Circuit deepened an existing circuit conflict

29

and disregarded this Court’s clear instructions about the standard for proving
a prima facie case of discrimination. Absent correction, the Eighth Circuit’s
decision will further undermine principles of consistency, predictability, and
fairness in the law

governing employment and other contractual

relationships.
The Eight Circuit’s decision conflicts with decisions of the other courts
of appeals. While the courts of appeals were already divided between those
that apply the plaintiffs objective qualification standard that this Court’s
precedents demand and those that apply an employer’s “legitimate
expectations” standard approach believed the employer’s explanation, and
even adopted more employer-friendly views by believing the employer’s mere
explanations with no consideration for the pretext stage contrary to this
Court’s teaching.
Majority of the federal circuits have adopted the objective qualification
standard. The court in Bienkowski v. Am. Airlines, Inc., 851 F.2d 1503 (5th
Cir. 1988), adopted the employee’s objective qualification standard; Carter v.
Three Springs Residential Treatment, 132 F.3d 635, 643 (11th Cir. 1998), held
plaintiff must show only that he had minimum qualifications for the job to
establish prima facie case; the Third Circuit adopted the same approach in
Sempier v. Johnson & Higgins, 45 F.3d 724, 729 (3d Cir. 1995), denying an
employer’s summary judgment motion because plaintiff had the objective
experience and education necessary to qualify as a viable candidate for the

30

positions he held; Weldon v. Kraft, Inc., 896 F.2d 793, 797-99 (3d Cir. 1990)
denying summary judgment to employer because plaintiff had both the
intelligence and the ability required for the position);
Tealeh u. Ward County et al. (8th Cir. 2021), the court adopted employer’s
“legitimate expectation” standard, affirmed employer’s summary judgment.
This Court should take this case to resolve the circuit split.
2. The Eighth Circuit Disregarded Douglas and Burdine.
The Eighth Circuit’s decision conflicts not only with the decisions of its
sister circuits but also with the clear teaching of this Court In McDonnell
Douglas v. Green. 411, U.S. 792 (1973), this Court held that the
discrimination provision of Title VII of the Civil Rights Act of 1964, 42 U.S.C.
§ 2000e-2(a), requires a plaintiff to establish a prima facie case of
discrimination by satisfying three prongs. First, that he or she belongs to a
protected class; second, have the qualification for the job, and third, suffered
adverse employment action(s). This Court held that if a plaintiff establishes a
prima facie case then the employer has the burden to prove a non­
discrimination reason(s) motivated its decision. If the employer provides a
non- discrimination reason(s), the burden shifts back to the plaintiff to
establish a pretext by showing that the employer is unworthy of credence
because the employer’s reason(s) for it’s decision is false.
The trial court based its analysis largely on the assumptions that the
employer’s explanation is true, disregarded Tealeh’s prima facie evidence and

31

this Court's instruction on the stages involved in establishing a prima facie
case of discrimination. The Eighth Circuit’s decision affirming the trial
court’s ruling in favor of the employer’s “legitimate expectations” standard
was especially unjustified in light of the fact that Tealeh’s prima facie and
pretext evidence showed that the County is unworthy of credence because the
reasons presented for its decision are false and accompanied by mendacity;
and this Court’s instruction required the plaintiffs objective qualification
standard. This Court created this standard as a way of giving both a plaintiff
and a defendant a fair chance to prove their case and has since been used by
majority of the Circuits to test 42 U.S.C. § 2000e -2(a) claims.
The Eight Circuit, by contrast, operated solely against the longstanding
instruction of prima facie standard. There is no authority or plausible basis
for deviating from this Court’s instruction. The Eighth Circuit’s contrary
decision is irreconcilable with this Court’s decisions in Green and Burdine>
3. The Prima Facie Second Prong Standard Is Exceptionally
Important
This

Court

recognized the

importance of getting Title VII

discrimination case right by creating the proper test for a plaintiff to prove a
claim of discrimination and a defendant to prevail if the defendant can show
that a non-discriminatory reason(s) motivated its decision, and a chance for a
plaintiff to prove that the defendant’s showing is false in numerous cases
involving the proper standard. See, e.g., McDonnell Douglas Corp. v. Green,

32

411 U.S. 792 (1973) and University of Tex. Southwestern Medical
Center v. Nassar, 570 U.S.338
This Court likewise recognized the importance of providing uniform rules for
the McDonnell Douglas v. Green’s analysis for status-based claim. The Eighth
Circuit’s judicial created employer’s “legitimate expectations” standard will
have serious consequences that will undermine discrimination law and which
underscore the need for this Court’s review.
First, the Eighth Circuit’s decision will transform the Green’s Analysis into
the preferred medium for not advancing discrimination claims in the circuit
because, unlike under plaintiffs objective qualification standard, there will
be no prima facie case or even pretext defense available to a plaintiffs. See
Tealeh v. Ward County- (8th Cir. 2021). Under objective qualification
standard, a plaintiffs showing that he or she has the required qualification
for the job would required a defendant to prove that non-discrimination
reason motivated its decision. Over the years, this Court has taken pains to
construct an analysis grounded and carefully balanced prophylactic measure
designed to combat racial discrimination. But by converting the analysis into
burdensome demanding anti-discrimination standard, the Eighth Circuit has
effectively displaced this Court’s thoughtful analysis with a new judicial
creation.
Eighth Circuit’s employer’s “legitimate expectations” standard will
impede courts’ ability to consider claims at the summary judgment stage. To

33

prevail, a defendant would have to show only explanations regarding whether
a plaintiff met it’s “legitimate expectations,” but not show non-discriminatory
motive for its decision regardless whether its explanation is false.
While a jury may ultimately reject a defendant’s false explanations that it’s
decision was not motivated by discrimination, requiring a large number of
claims that actually have merit to not advance to trial would increase the
level of petition for certiorari and drain judicial resources, and delaying the
timely adjudication of claims. As this Court explained in Nassar, the “proper
interpretation and implementation of’ an antidiscrimination statute’s
“causation standard have central importance to the fair and responsible
allocation of resources in the judicial and litigation systems.” Similarly, a
deviation from this Court’s teaching and misapplication of the Green’s
Analysis could contribute to the petitioning for review, which would drain
resources from efforts to combat discrimination.
4. The Eighth Circuit’s judgment Cannot Be Reconciled With This
Court’s Precedence For Justice.
Many times in the context of federal anti-discrimination laws, this
Court has instructed that under the McDonnell Douglas v. Green’s Analysis
the standard requirement for the second prong of a prima facie case in
employment discrimination dispute is evidence establishing that the plaintiff
is qualified for the position. McDonnell Douglas v. Green, 411 U.S. 792 (1973).
See also Texas Dept, of Community Affairs v. Burdine 450, U.S. 248, 253
(1981). However, the Eighth Circuit read the second prong requirement as

34

evidence that the plaintiff met the employer’s “legitimate expectations” to
allow a plaintiff establish a prima facie case of discrimination applying the
McDonnell Douglas' analysis for the employer’s cause of action in 42 U.S.C.
§2000e 2(a). The Eighth Circuit not only disregarded Green and Burdine, but
exacerbated a circuit split on the standard of prima facie second prong that
should apply to claims under section 2000e 2(a). The Eighth Circuit then
applied its burdensome standard in a manner that would place a plaintiffs
qualifications in issue at both the prima facie case and pretext stages of a
termination case; an unnecessary redundancy, despite this Court’s contrary
teaching in cases like Crawford v. Metro. Gov't of Nashville & Davidson Cty.,
555 U.S. 271 (2009), McDonnell Douglas v. Green, 411 U.S. 792 (1973), and
Texas Dept, of Community Affairs v. Burdine 450, U.S. 248, 253 (1981).
Likewise, the Eighth Circuit’s decision cannot be reconciled with this Court’s
precedence. The defendants’ reasons for its decision are untenable,
implausible and its mere explanations are less than candid and have no
probative value. Tealeh moved for review because defendants failed plausibly
to demonstrate that racial animus and Tealeh’s protected activity were not
the reason of its decision. Tealeh’s prima facie and pretext evidence and this
Court’s precedence demonstrate that genuine issue of material facts exist for
a jury trial and the defendants are not entitled to summary judgment on all
claims as a matter of law. Reeves v. Sanderson Plumbing Prods. Co., 530 U.S.

35

133, 151 (2000) and Wright v. West, 505 U.S. 277, 296 (1992) & Celotex v.
Catrett, 477 U.S. 317, 325 (1986), See also Fed. Rule Civ. Proc. 56.
The trial court acknowledged that under the McDorinell v. Green's
analysis, Tealeh would certainly survive summary judgment if the plaintiffs
objective qualification standard were applied. But ignored this Court’s
instruction that a plaintiffs objective qualification is the standard; instead
applied employer’s “legitimate expectations” standard. The Eighth Circuit’s
approach conflicts with this Court’s McDonnell Douglas v. Green's burdenshifting analysis. The decision on Tealeh’s retaliation claim also conflicts
with Crawford. Left in place, the Eight Circuit’s employer’s “legitimate
expectations” and holding that employer’s conduct must be illegal for
employee to engage in protected activity will exacerbate the compelling fear
of retaliation which work to undermine the individual’s will to resist or
oppose and compel him/her to communicate a belief of discrimination to
his/her employer; likewise have a devastating chilling effect on a plaintiffs
rights to challenge his or her termination as Title VII’s aggrieved individuals
could be discouraged from engaging in protected activity. This Court, and
institutions’ efforts to combat prohibited wrongful discrimination in the
workplaces and in sectors of economic endeavor could be harmed as well.

36

CONCLUSION
For the foregoing reasons, this Court should grant the petition for certiorari.
Respectfully submitted,
Dated August 26, 2021.
Respectfully submitted,

Flomo TealehT
;----- -—
Pro Se Petitioner
1414 South 3rd Street
Minneapolis, MN 55454
612-601-3027
people4justicel@gmail.com

37

